                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL                     I
                                                   OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 1-03-05-0016
                                                                                11          Page 1 of 1



         An internal review of the Government Travel Credit Card Program by the National Science
         Foundation (NSF) Office of Inspector General (OIG) revealed the possibility of unauthorized use
         of the government travel credit card.

                                             '
         A review of the subject employee's travel credit card statement transaction reports reflected
         multiple cash withdrawals and other charges which did not appear to be associated with official
         government travel.                                                                        )I


         NSFIOIG referred this case to the United States Attorney's Office, Eastern District of Virginia
         who declined prosecution in lieu of agency administrative action.

         OIG's referral to NSF resulted in the subject employee receiving a suspension from duty and pay
         The decision for suspension is attached and constitutes part of this closeout document. -

         Accordingly, this case is closed




          ' Footnote Redacted                                                                         I




NSF OIG Form 2 (1 1/02)
                                                                                                      I1
                                                                                             /I




               -
                National S~ienoeFoundation                                                    I

                4201 Wilson B6ulevard, Arlington, Virginia 22230



 Memorandum
DATE:
TO:             0                                                                                 I



FROM:          0
SUBJECT:        Decision on Proposed Suspension

                                                                                                      1

                         uspensionfrom duty and pay from your position as                             I
                          for five (5) calendar days because of your misuse of the


You were given the right to reply orally and in writing and to present affidavits or other




  Ihave given much thought and consideration to your response and the file supporting the
 proposed action. In both your oriil and written responses, you did not refute the charge, but
 explained that your medical treatments during that time led you to use your government
 travel card in order to cover the debt You apologized and acknowledged that it was a
  mistake in judgment. As an alternative to the .proposed action, you asked that Iconsider
  having you volunteer at a local literacy council tutoring adults in basic reading and writing as
  a way of rectifying your mistake. You stated that the commitment of time and effort would be
  equal to or greater than the 40 hours lost under a suspension action. In her statemen-
-aid          she has been helping you cope with the trauma and symptoms you have been
  expenencing over several years. She stated that you and she have made a great deal of ,
  significant progress, and asked that your personal circumstances and hardship be
  considered when deciding the outcome.

 Based on the facts of this case, Ihave determined that the evldence presented in the file fully
 supports the charge. After considering your responses and the evidence, Ido not believe an
 alternative penalty would be appropriate in this case, and I've determined that suspension 1s
 warranted in order to promote the efCidency of the Federal service.

 In reaching this declsion, Iconsidered the factors
                                                     F          set forth in her proposal letter
 such as the nature arid level of your position, the na ure and seriousness of your misconduct,
 and its impact on our office effectiveness. This type of misconduct Is serious and reflects
                                                                                                 /I


 poorly on #e office and the
 a member of one of NSF's
 Accordingly, you are expected to exhibit the highest level of pmfessionalism. Your
/   demonstrated lack of judgment In this matter has impacted my confidence In your role a$
    steward of the public trust.
                                                                $

    Ialso considered that you were dearly on notice that misusing your government travel card
    was unacceptable and could result in disciplinary action. Ifind it significant that despite the
    number of tlmes you were offidally notified and warned, you continued to misuse your
    government travel card.
    Ialso considered the personal difficulties you shared in your oral and wtitten responses, and
    the statement sent b              m Ifeel sympathy for what you have faced and commend the
    progress you have made w    -              in overcoming these experiences. Iencourage you
    to continue thls movement forward. Ido note that m i s o amsldered these hardships
    on your behalf when she proposed a more lenlent penalty than what the violations could ,
    have supported. I believe Ireach an appropriate balance in upholding the 5day suspension
    as a fair penalty in this matter.
    Therefore, you will 'be suspended from
    consecutive calendar days, effective
                      both dates lnclus
    that time. You are expected to return to duty on
    that during the period of your suspension, you are not to perform work for the National       +

    Sdence Foundation.
  Please understand that further repetitionof this or any other type of misconduct going
  forward may result in more severe disdplinary action, up to.and including your removal from




       --
. the Federal'service.

    You have the right to grieve this action under the provisions of the negotiatedgrievance
    procedure described in Article XVI of the Collective Bargafning Agreement between Local
    3403, AFGE, AFL-CIO, and the National Science Foundation, a copy of which is attached.
    You may present a grievance at any time after receipt of this memorandum, but not later than
                                                                                              -'
    twenty-five (25) calendar days after receipt Your grievance under thls procedure must
    begin as an informal grievance and may be presented either orally or in writing.
    If vou have any aukstions about his decision' or do not understand the reasons given, please
    cdntad me immediately. If you have any qu&tlons regarding your fights or the procedures '
    used in this matter, you may conta
